No.

 

hn the
Supreme Court of the United States

Thomas Rhodes,
Petitioner,
vs.
Michelle Smith, Warden,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

As preparer of the document above, I hereby certify that the Petition for Writ of
Certiorari, Docket no. , complies with Rule 33.1 in that it contains the
proper typeface in the proper size. I further certify that the document contains
8,962 words total, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on 1 23 , 2020.
tf

Stephen M. West
Legal Brief Manager, Bachman Legal Printing

Subscribed and sworn to before me this 23rd day of July, 2020.

Notary Public

EDWINR.MOTCH
NOTARY PUBLIC - MINNESOTA %
My Commission Expires Jan, 31, 2025 (0)

(LLL LLLLALLLLLL LLL LALLA

    
   

 

  

 

2020 - BACHMAN LEGAL PRINTING - FAX (612) 337-8053 - PHONE (612) 339-9518 or 1-800-715-3582
